                                              OFFICE OF THE ASSISTANT SECRETARY
                                              FOR ADMINISTRATION AND MANAGEMENT

Office of Inspector General—Office of Audit




                                              THE DEPARTMENT OF LABOR’S
                                              RECORDS MANAGEMENT PROGRAM
                                              CONTROLS NEED STRENGTHENING




                                                                    Date Issued: September 15, 2008
                                                                    Report Number: 03-08-001-07-001
U.S. Department of Labor                               September 2008
Office of Inspector General
Office of Audit                                        The Department of Labor’s Records
                                                       Management Program Controls Need
                                                       Strengthening

BRIEFLY…                                               WHAT OIG FOUND
                                                       DOL could not demonstrate that controls are
Highlights of Report Number: 03-08-001-07-001,
                                                       sufficient to ensure Federal records are preserved
to the Assistant Secretary for Administration and
                                                       in accordance with Federal regulations. DOL did
Management.
                                                       not: (1) conduct comprehensive periodic
                                                       evaluations of its Records Management program;
WHY READ THE REPORT                                    (2) provide records management training to all
                                                       staff; and (3) effectively manage the quantity of
The Office of Inspector General (OIG) performed        transitory records or documents that have no legal
an audit of the U.S. Department of Labor’s (DOL)       retention requirements. The lack of sufficiency in
Records Management program.                            conducting these practices results in DOL being
                                                       unable to ensure that its employees were entering
The National Archives and Records                      all Federal records into the appropriate
Administration (NARA) oversees records                 recordkeeping system. DOL proposed to
management at all Federal agencies. NARA               implement a new policy on deleting backup media
requires Federal agencies to institute adequate        containing e-mail and electronic files that are
records management controls over the                   transitory records or documents that have no legal
maintenance, use, and disposition of records.          retention requirements. However, DOL should
                                                       delay implementing the policy until it can
In DOL, the Assistant Secretary for Administration     demonstrate compliance with NARA and
and Management is responsible for managing the         Department records management regulations.
Department’s records and providing overall policy
direction for the Department’s Records                 We also found that DOL did not have an effective
Management program. The DOL Records                    recordkeeping and document management
Management program consists of records                 system to manage its e-mail and electronic files in
creation, maintenance and use, and disposition to      response to legal holds, litigation discovery, and
achieve adequate and proper documentation of           other requests. DOL may be at risk of not being
the policies and transactions of the Department.       able to address these requests in a timely and
                                                       complete manner.
WHY OIG DID THE AUDIT
The purpose of our audit was to answer the             WHAT OIG RECOMMENDED
following questions:
                                                       We recommended that the Assistant Secretary for
                                                       Administration and Management implement an
    1. Does DOL have sufficient controls to
                                                       effective evaluation process of its Records
       ensure that Federal records are
                                                       Management program. Additionally, DOL should
       preserved in accordance with Federal
                                                       delay implementing its new policy on deleting
       regulations?
                                                       backup media until the evaluation process is
                                                       operating. We also recommended that Agency
    2. Does DOL have sufficient controls to            Heads be required to implement program specific
       preserve e-mail and electronic                  recordkeeping procedures on the maintenance
       documents, as a result of legal hold            and disposition of transitory records and
       orders, litigation discovery, and requests?     documents. Finally, we recommended that DOL
                                                       conduct a cost-benefit analysis on establishing a
READ THE FULL REPORT                                   system which provides the capabilities to
                                                       centrally, efficiently, and effectively manage and
To view the report, including the scope,
                                                       access e-mails that are Federal records.
methodology, and the Deputy Assistant Secretary
for Operations’ response, go to:
                                                       The Deputy Assistant Secretary for Operations
http://www.oig.dol.gov/public/reports/oa/2008/03-08-   generally agreed with the recommendations.
001-07-001
                                   The DOL Records Management Program Controls Needs Strengthening




Table of Contents
                                                                                                                         PAGE

EXECUTIVE SUMMARY ................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 7


   DOL Could Not Demonstrate Controls Are Sufficient to Ensure Federal
   Records Are Preserved in Accordance With Federal Regulations........................ 8

   DOL Did Not Have an Effective Recordkeeping and Document
   Management System to Manage Its E-mail and Electronic Files In
   Response to Requests ............................................................................................ 15

EXHIBIT ........................................................................................................................ 21

   A. Glossary .............................................................................................................. 23

APPENDICES ............................................................................................................... 27

   A. Background ......................................................................................................... 29

   B. Objectives, Scope, Methodology, and Criteria ................................................. 33

   C. Acronyms and Abbreviations ............................................................................ 37

   D. Agency Reponse to the Draft Report ................................................................ 39




U.S. Department of Labor—Office of Inspector General                                                                             1
Report Number: 03-08-001-07-001
The DOL Records Management Program Controls Need Strengthening




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                     U.S. Department of Labor—Office of Inspector General
                                                          Report Number: 03-08-001-07-001
                          The DOL Records Management Program Controls Need Strengthening




Executive Summary
The Federal Records Act of 1950 requires that the head of each Federal agency
establish and maintain an active records management program. The National Archives
and Records Administration (NARA) has oversight responsibilities of Federal records
management programs. In the U.S. Department of Labor (DOL), the Assistant
Secretary for Administration and Management is responsible for managing the
Department’s records and providing overall policy direction for the Department’s
Records Management program. The DOL Records Management program consists of
records creation, maintenance and use, and disposition to achieve adequate and proper
documentation of the policies and transactions of the Department.

The Office of Inspector General (OIG) conducted a performance audit of DOL’s Records
Management program. Our objectives were to answer the following questions:

    1. Does DOL have sufficient controls to ensure that Federal records are preserved
       in accordance with Federal regulations?

    2. Does DOL have sufficient controls to preserve e-mail and electronic documents,
       as a result of legal hold orders, litigation discovery, and requests?

Results

1. DOL could not demonstrate that controls are sufficient to ensure Federal records are
preserved in accordance with Federal regulations. While DOL established records
management policies and procedures, all procedures were not followed, such as: (1)
conducting comprehensive periodic evaluations of its Records Management program;
(2) providing Department-wide records management training to all staff; and (3)
effectively managing the quantity of transitory records or documents that have no legal
retention requirements, separately from records covered under a Federal Records
Schedule.

•   DOL did not perform comprehensive evaluations of the Department’s Records
    Management program. We found that two of the five agencies we audited had an
    evaluation process that included some aspects of records management; however,
    the results were not reported to the Department and Agency Records Officers. Also,
    the Department conducted limited records management reviews; however, the
    reviews did not include evaluations of creation, maintenance and use of records,
    recordkeeping requirements, records inventories, file plans, and disposition
    schedules.

•   DOL did not provide records management training to all employees. Some
    employees relied either on the orientation instructions they received when they were

U.S. Department of Labor—Office of Inspector General                                    3
Report Number: 03-08-001-07-001
The DOL Records Management Program Controls Need Strengthening


    hired, or on-the-job training to determine what papers, e-mails, and electronic
    documents to enter into the appropriate recordkeeping system. Department Officials
    stated that they provided training to agency records officers, managers, supervisors,
    and some National Office employees. DOL took corrective action and on
    June 2, 2008, implemented mandatory on-line records management training for all
    employees and contactors.

•   DOL agencies did not follow Department guidance for disposing of hard copy or
    electronic transitory records or documents that have no legal retention requirements
    every 90 days or sooner. Although these documents and files may not be
    considered long-term Federal records, they may be subject to Freedom of
    Information Act (FOIA), discovery, investigative, and Congressional requests and
    cannot be destroyed if they are relevant and exist at the time. Therefore, DOL could
    incur time and cost for maintaining these records, which would be avoided if the
    records are disposed of within the guidelines.

    In December 2006, DOL proposed to implement a new Department-wide Uniform
    E-Mail and Electronic Document Backup Retention Policy, which would reduce the
    amount of transitory records or documents that have no legal retention requirements
    by setting a 6-month period for maintaining the backup media for deleted e-mails
    and electronic files, after which time they would be unavailable. While the new
    retention policy seems reasonable and would provide added guidance on disposition
    of e-mail and electronic files that are transitory records or have no legal retention
    requirements under the Federal Records Act, the implementation of the policy
    should be delayed until DOL can demonstrate compliance with NARA and
    Department records management regulations. In June 2007, DOL postponed
    implementing the new Department-wide Uniform E-Mail and Electronic Document
    Backup Retention Policy after OIG raised concerns about how the lack of providing
    records management training to all employees could result in the premature deletion
    of e-mails and electronic records that are required to be filed and maintained in
    accordance with the appropriate records schedule. However, in addition to the
    training, DOL needs to ensure comprehensive periodic evaluations of its Records
    Management program are conducted before the policy is implemented.

We found that DOL Records Management officials were aware of the NARA and
Department regulations and as such took some action to perform limited periodic
reviews, conduct training, and dispose of transitory records or documents that have no
legal retention requirements. However, the lack of sufficiency in conducting these
practices results in DOL being unable to ensure that its employees were entering all
Federal records into the appropriate recordkeeping system, and maintaining, using and
disposing of them as NARA and DOL requires.

2. DOL did not have an effective recordkeeping and document management system to
manage its e-mail and electronic files in response to FOIA and other requests. DOL
may be at risk of not being able to address in a timely and complete manner e-mail and
electronic file needs required as a result of legal holds orders and litigation discovery.


4                                       U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 03-08-001-07-001
                          The DOL Records Management Program Controls Need Strengthening


DOL depends on the collaboration of its SOL lawyers and Department program officials
to preserve Federal records and “non-record” materials, in the form of e-mail and
electronic documents, as a result of legal hold orders, litigation discovery, and requests.
However, the DOL did not have effective controls over the recordkeeping and
maintenance of e-mails and electronic documents in order to efficiently access them
when needed. Specifically, DOL could not demonstrate an efficient and effective
organization and management of electronic data capable to produce it in a timely and
complete manner, when needed, from legal hold orders, litigation discovery proceedings
and FOIA and other requests. As a result, in FYs 2007 and 2008, DOL had to spend
significant time and funds to search and retrieve relevant documents in order to respond
to major Congressional requests. We were told the DOL Office of the Assistant
Secretary for Administration and Management (OASAM) initiated the development of an
electronic recordkeeping and document management system to address the need for
an effective and efficient management tool but due to budgetary considerations
suspended the project.

Recommendations

We recommended that the Assistant Secretary for Administration and Management:

1. Implement an effective evaluation process so DOL can demonstrate that its
   agencies are in compliance with relevant Records Management laws, regulations,
   and procedures.

2. Periodically prepare a written summary on DOL’s evaluation activities and report
   whether DOL is in compliance with NARA and DOL records management
   requirements.

3. Require Agency Heads to implement NARA and Departmental guidance by creating
   program specific recordkeeping procedures that instruct all employees on the
   maintenance and disposition of transitory records and documents that have no legal
   retention requirements under the Federal Records Act.

4. Before implementing the new retention policy, ensure that the Department’s
   evaluation of DOL’s Records Management program demonstrates compliance with
   NARA and DOL records management regulations.

5. Conduct a cost-benefit analysis on establishing an electronic recordkeeping and
   document management system, or a similar system, which provides the capabilities
   to centrally, efficiently and effectively manage and access e-mails that are Federal
   records and addresses the unnecessary retention of e-mails that are transitory
   records or non-records.




U.S. Department of Labor—Office of Inspector General                                      5
Report Number: 03-08-001-07-001
The DOL Records Management Program Controls Need Strengthening


This report did not recommend corrective action on employee training because we
addressed it in our September 2007 Management Letter to the Assistant Secretary for
Administration and Management and the training was implemented.

Agency Response

The Deputy Assistant Secretary for Operations responded that the Department will
standardize as a regular part of its Records Management program the periodic
evaluations cited in NARA regulations 36 CFR part 1220.42. The framework for the
periodic evaluations will be derived from NARA’s self-evaluation guide for Federal
agencies. The periodic evaluations will be scheduled so that all DOL agencies will be
covered during a 5-year cycle on an ongoing basis, beginning in the first quarter of
FY 2009. The Department will prepare a written summary as each evaluation is
completed.

On August 18, 2008, the Assistant Secretary for Administration and Management
issued a memorandum to Agency Heads, to create program-specific record keeping
procedures that instruct all employees on the maintenance and disposition of transitory
records and documents.

Concerning the recommendation to ensure that DOL can demonstrate compliance with
NARA regulations and DOL records management requirements before implementing
the new retention policy, the Deputy Assistant Secretary for Operations responded that
there is now a demonstrated assurance that the Department’s Records Management
program is in compliance with the NARA and DOL requirements. This can be based in
the substantial efforts the Department has undertaken since 2004 to improve its
Records Management program, the absence of any NARA identified instances of non-
compliance in DOL’s Records Management program, the retirement of more than
140,000 cubic feet of Federal records (both paper and electronic media) to NARA’s
Federal Records Centers, adopting OIG recommendations 1 through 3, and providing
annual mandatory records management training to all DOL employees. Additionally,
the retention policy will be guided by recent opinion from the Solicitor of Labor. The
retention policy will be re-issued before the end of FY 2008.

The Deputy Assistant Secretary for Operations responded that DOL is aware of the
potential benefits of electronic recordkeeping and document management systems and
the Office of the Chief Information Officer will update its cost-benefit analysis.

OIG Conclusion

Recommendations 1, 2, 4, and 5 are resolved and recommendation 3 is closed. The
Deputy Assistant Secretary for Operations’ response to recommendation 4 provides an
alternative corrective action. We agree with the Deputy Assistant Secretary’s proposed
corrective action. However, the recommendation will not be closed until
recommendations 1 and 2 are implemented.


6                                      U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 03-08-001-07-001
The DOL Records Management Program Controls Need Strengthening


U.S. Department of Labor                     Office of Inspector General
                                             Washington, DC 20210


September 15, 2008

                        Assistant Inspector General’s Report

Patrick Pizzella
Assistant Secretary
   for Administration and Management
U.S. Department of Labor
200 Constitution Ave., NW
Washington, DC 20210

The OIG conducted a performance audit of DOL’s Records Management program. Our
objectives were to answer the following questions.

    1. Does DOL have sufficient controls to ensure that Federal records are preserved
       in accordance with Federal regulations?

    2. Does DOL have sufficient controls to preserve e-mail and electronic documents,
       as a result of legal hold orders, litigation discovery, and requests?

To accomplish our audit, we reviewed DOL’s Department-wide Records Management
program policies and procedures and interviewed the DOL Records Officer. We also
reviewed policies, procedures, and practices at five DOL agencies and interviewed their
Records Officers and a sample of program managers and employees. The five
agencies and programs were the Employment Standards Administration (ESA), Wage
and Hour Division; the Occupational Safety and Health Administration (OSHA), Safety
and Health Inspection; the Mine Safety and Health Administration (MSHA), Metal and
Nonmetal Inspection; the Bureau of Labor Statistics (BLS), Quarterly Employment
Statistics; and the Employment and Training Administration (ETA), Trade Adjustment
Assistance. Additionally, we conducted interviews with officials from the Solicitor of
Labor (SOL).

We conducted our audit in accordance with generally accepted government auditing
standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Our objectives, scope, methodology, and criteria are detailed in
Appendix B.

Objective 1 – Does DOL have sufficient controls to ensure that Federal records
were preserved in accordance with Federal regulations?


7                                       U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 03-08-001-07-001
The DOL Records Management Program Controls Need Strengthening


Results and Findings – DOL could not demonstrate controls are sufficient to
ensure Federal records are preserved in accordance with Federal regulations.

While DOL established records management policies and procedures, all procedures
were not followed, such as: (1) conducting comprehensive periodic evaluations of its
Records Management program; (2) providing Department-wide records management
training to all staff; and (3) effectively managing the quantity of transitory records and
documents that have no legal retention requirements under the Federal Records Act,
separately from records covered under a Federal Records Schedule. We found that
DOL Records Management officials were aware of the NARA regulations and
Department requirements and as such took some action to perform limited periodic
reviews, conduct training, and dispose of transitory records or documents that have no
legal retention requirements. However, the lack of sufficiency in conducting these
practices results in DOL being unable to ensure that its employees were entering all
Federal records into the appropriate recordkeeping system, and maintaining, using and
disposing of them as NARA and DOL requires.

Since FY 2004, DOL had taken steps to improve its Records Management Program and
communicated to all Agency Heads the importance of records management. Examples
of these steps included:

    •   The Solicitor of Labor (SOL) issued guidance on Federal records, including
        specific instructions on how to handle electronic records.

    •   DOL updated the Records Management Handbook.

    •   DOL trained all its agency records officers, and administrative and information
        technology (IT) staff on their records management responsibilities.

    •   DOL offered records management training to managers and supervisors in which
        more than 200 employees were trained.

    •   The DOL Records Officer participated in work groups with NARA and the
        e-Rulemaking E-Government Initiative.

    •   The DOL Enterprise Architecture Program Manager participated in the Records
        Management Service Component Working Group of the Electronic Records
        Management e-Government Initiative.

    •   BLS, ESA’s Office of Workers’ Compensation Programs and the Wage and Hour
        Division, OSHA, ETA, and MSHA initiated action to update their records
        schedules, including electronic records.

These initiatives primarily targeted improvement of agency-wide rather than employee-
level records management. In order to ensure compliance with Federal (e.g., NARA
and DOL) requirements related to records management, the Department needs to

8                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-08-001-07-001
                          The DOL Records Management Program Controls Need Strengthening


evaluate its Records Management Program, conduct mandatory training of all
employees on records management, and ensure that agencies dispose of their Federal
records according to a NARA-approved records schedule.

The Office of Management and Budget (OMB) Circular No. A-123, Management’s
Responsibility for Internal Control, dated December 21, 2004, requires managers to
develop and maintain effective internal controls. Effective internal controls provide
assurance that significant weaknesses in the design or operation of internal controls
that could adversely affect the agency’s ability to meet its objectives would be prevented
or detected in a timely manner.

DOL Did Not Conduct Comprehensive Periodic Evaluations of its Records Management
Program.

DOL could not demonstrate that its Records Management Program complied with
NARA and its own requirements. While the Department did conduct limited record
management reviews, the reviews did not include comprehensive evaluations of the
creation, maintenance and use of records, recordkeeping requirements, records
inventories, file plans, and disposition schedules. Therefore, DOL could not
demonstrate that all Federal records are entered into the appropriate recordkeeping
system, and are properly maintained, used and disposed.

Federal regulations require that each agency periodically evaluate its records
management programs for compliance with relevant laws and regulations and for
effectiveness. Title 36 of the Code of Federal Regulations (CFR) Part 1220.42 states:

       Each agency must periodically evaluate its records management
       programs relating to records creation and recordkeeping
       requirements, maintenance and use of records, and records
       disposition. These evaluations shall include periodic monitoring of
       staff determinations of the record status of documentary materials
       in all media, and implementation of these decisions. These
       evaluations should determine compliance with NARA regulations in
       this subchapter, including requirements for storage of agency
       records and records storage facilities in 36 CFR Part 1228,
       subparts I and K, and assess the effectiveness of the agency's
       records management program.

According to the Department of Labor Manual Series (DLMS) -1, Chapter 413, the
Department Records Officer is responsible for performing periodic reviews in DOL.

The Department’s Records Officer explained that DOL’s evaluation process for records
management consisted of agencies conducting an ongoing review of their records




U.S. Department of Labor—Office of Inspector General                                    9
Report Number: 03-08-001-07-001
The DOL Records Management Program Controls Need Strengthening


schedules 1 . In this process, agencies reviewed records created or received as a result
of program activities and compared them to existing records schedules. The reviews
included compliance with current business and records management program
requirements. The DOL Records Officer stated there were no written reports of these
reviews, but cited the increasing storage of DOL records at NARA’s Federal Records
Centers as evidence that agencies were complying with their records schedule
requirements. This process is not effective because it did not require agencies to
incorporate records management into their internal control monitoring and it lacked
sufficient oversight by the Department and Agency Records Officers.

Due to the large number and variety of records and recordkeeping systems throughout
DOL, the Department’s Records Officer had to rely on internal controls at the agency
level to ensure record management systems and practices complied with NARA
regulations and DOL requirements. Internal controls at the agency level were also
important because DOL relied on its employees to identify and move hard copy
documents, e-mail, and electronic files that are Federal records to the appropriate
recordkeeping system. It is important that DOL have the ability to demonstrate that this
occurred.

The five agencies we reviewed had a supervisory review process over program
activities that included compliance with agency documentation requirements. However,
only OSHA and MSHA implemented an internal control program that included
evaluating some records management activities at the program level and reporting the
results to appropriate agency program officials, but not the Agency Records Officer.
OSHA established the Management Accountability Program as one component of its
internal control system. The Management Accountability Program consisted of reviews
conducted by OSHA Regional Office staff of its area offices; the area offices were
responsible for performing and documenting safety and health inspections. The reviews
covered inspection case file documentation and records disposition, and the process
required the reviewers to prepare written reports of results, along with any corrective
action for deficiencies found. The written reports were provided to the OSHA National
Office’s Director of Evaluations and Analysis. MSHA had a similar process. However,
the OSHA and MSHA Records Officers informed us they did not receive copies of these
reviews.

DOL Did Not Provide Department-wide Records Management Training to All
Employees.

Not all employees received records management training. Some employees relied
either on the orientation instructions they received when they were hired, or on-the-job
training to determine what papers, e-mails, and electronic documents to enter into the
appropriate recordkeeping system. Department Officials stated that they only provided
training to agency records officers, managers, supervisors, and some National Office

1
  A records schedule governs specified series of records common to several or all agencies or
administrative units of a corporate body. The records schedule provides disposition authority for
temporary administrative records common to several or all agencies of the Federal Government.

10                                             U.S. Department of Labor—Office of Inspector General
                                                                   Report Number: 03-08-001-07-001
                            The DOL Records Management Program Controls Need Strengthening


employees; however, the Department had not provided training to all employees on
their responsibilities and techniques for the implementation of recordkeeping
requirements, and on the distinction between records and non-record materials,
regardless of the type of media. All 12 agency employees we interviewed explained
that when they were hired, they received formal or on-the-job training on their job duties
and responsibilities, but not on records management. The employees said they relied
on this initial training to determine what papers, e-mails, and electronic documents to
enter into the appropriate recordkeeping system.

As a result, there is a risk that DOL employees are not aware of their responsibility to
identify which documents are Federal records and process them according to
Department and Agency requirements. This is especially critical for e-mails and
electronic files. If employees are not able to identify Federal records, there is the
additional risk that e-mails and electronic files are deleted before being appropriately
filed in the agency’s recordkeeping system. 2 Records management training is one of
the key internal controls necessary to mitigate this risk.

Federal regulations and the DLMS contain provisions to ensure that Federal employees
are aware of their records management responsibilities. They include:

    •   Title 36 CFR, Part 1222.20 (b) (5), requires that each Federal agency ensure that
        it provides adequate training to all personnel on policies, responsibilities, and
        techniques for the implementation of recordkeeping requirements, and the
        distinction between records and non-record materials, regardless of media,
        including those materials created by individuals using computers to send or
        receive e-mail.

    •   Title 36 CFR, Part 1222.34 (g), requires agencies to take appropriate action to
        ensure that all staff are capable of identifying Federal records. For electronic
        mail systems, agencies shall ensure that all staff are informed of the potential
        record status of messages, transmittal and receipt data, directories, and
        distribution lists.

    •   DLMS-1 Chapter 413, section E(3) requires employee records management
        training.

In September 2007, 3 the OIG recommended that the Assistant Secretary for
Administration and Management develop and implement annual records management
training of all DOL managers and employees. Such training would help ensure
adequate and proper documentation of the policies and transactions of the
Department’s public business. In response to OIG, the Assistant Secretary for

2
 DOL’s Handbook, section entitled "E-mail and Electronic Document Backup Media Retention Policy -
Frequently Asked Questions,” dated May 23, 2007.
3
 Management Letter No. 03-07-004-07-001, September 24, 2007, to the Assistant Secretary for
Administration and Management.

U.S. Department of Labor—Office of Inspector General                                                11
Report Number: 03-08-001-07-001
The DOL Records Management Program Controls Need Strengthening


Administration and Management agreed to conduct annual training for all DOL
employees. The online mandatory training on record management began on
June 2, 2008.

DOL Did Not Effectively Manage the Quantity of Transitory Records or Documents That
Have No Legal Retention Requirements Under the Federal Records Act.

DOL did not ensure the efficient, prompt and orderly reduction in the quantity of
transitory records and documents that had no legal retention requirements under the
Federal Records Act. 4 We found that the agencies we reviewed were not following
DOL guidance for disposing or deleting these types of records every 90 days or sooner.
This occurred because agencies did not have specific procedures on maintaining and
disposing of these records according to DOL guidance. Although these documents and
files may not be considered long-term Federal records, they may be subject to Freedom
of Information Act (FOIA), discovery, investigative, and Congressional requests and
cannot be destroyed if they are relevant and exist at the time. Therefore, DOL could
incur time and cost for maintaining these records, which would be unnecessary if the
records had been disposed of within the guidelines.

Title 36 CFR Part 1220.38 states:

        Agencies must ensure the proper authorized disposition of their
        records, regardless of format or medium, so that permanent
        records are preserved and temporary records no longer of use to
        the agency are promptly deleted or disposed of in accordance with
        the approved schedule when their required retention period expires.

The DOL Records Management Handbook, Part 3 – Records Requiring Only Short
Term Retention, states: If transitory documents are to be retained, they should be kept
in a separate chronological file and deleted or destroyed every 90 days or sooner if no
longer needed.

None of the five agencies we reviewed had procedures defining transitory records and
instructing the employees to dispose or delete them after 90 days. Program managers
and employees varied in how they handled the retention of transitory records. Broadly,
we found that each March, the Assistant Secretary for Administration and Management
sponsors a “DOL Spring Cleaning Week.” The Assistant Secretary sends a
memorandum to agency administrative officers; it includes instructions for having
employees delete unneeded data files, including e-mails and attachments. The
memorandum, however, does not define transitory records or cover the 90-day deletion
guidance. While all five agencies under review participated with the “DOL Spring
Cleaning Week” in directing employees to determine whether the e-mails or electronic

4
  Transitory records are documents of short-term (180 days or less) interest, including in electronic form
(e.g., e-mail messages), which have minimal or no documentary or evidential value. Although these may
be useful to employees in accomplishing their work, the documents are not needed as part of the long
term documentation of agency activities.

12                                             U.S. Department of Labor—Office of Inspector General
                                                                   Report Number: 03-08-001-07-001
                              The DOL Records Management Program Controls Need Strengthening


documents met the legal definition of a record before deleting them, the guidance was
not sufficient for instructing employees on how to manage e-mails that were of a
transitory nature. Therefore, employees with no records management training, made
decisions on when to dispose of records that they determined to have minimal or no
documentary or evidential value.

In December 2006, DOL proposed to implement a new Department-wide Uniform
E-Mail and Electronic Document Backup Retention Policy, which would assist in
reducing the amount of records that have short-term retention requirements or no
business value by setting a 6-month period for maintaining deleted e-mails and
electronic files, after which time they would be unavailable. We concluded that the
proposed retention policy was reasonable based on NARA’s e-mail retention policy and
would provide added guidance on disposition of e-mail and electronic files that are
transitory records and documents that have no legal retention requirements under the
Federal Records Act. NARA, General Records Schedule (GRS) 20 5 gives Federal
agencies the authority to adopt the print and delete method for handling e-mail. It
allows for deletion of the electronic versions of e-mail on the desktop provided the
recordkeeping copy is kept in either paper or electronic form, with appropriate
transmission and receipt data included. DOL’s policy on e-mail and electronic
documents is to print and file them into the appropriate recordkeeping system. 6
However, the implementation of the Department-wide Uniform E-Mail and Electronic
Document Backup Retention Policy should be delayed until DOL can demonstrate
compliance with NARA regulations and Department records management requirements.
Specifically, DOL must have the ability to demonstrate that its employees file e-mails
and electronic documents that are Federal records, not including transitory records, into
the appropriate recordkeeping system before deleting the electronic versions of them.

After meeting with the OIG on June 21, 2007, the Assistant Secretary for Administration
and Management suspended implementing the new retention policy. OIG explained
that because DOL had not conducted mandatory training on records management,
there was a risk that employees might unintentionally delete records that should be
retained.

Recommendations

We recommend the Assistant Secretary for Administration and Management:

1. Implement an effective evaluation process so DOL can demonstrate that its
   agencies are in compliance with relevant Records Management laws, regulations,
   and procedures.



5
  The GRS provides disposition authority for temporary administrative records common to several or all
agencies of the Federal Government.
6
  DOL’s Handbook, section entitled "Email and Electronic Document Backup Media Retention Policy -
Frequently Asked Questions,” dated May 23, 2007.

U.S. Department of Labor—Office of Inspector General                                                     13
Report Number: 03-08-001-07-001
The DOL Records Management Program Controls Need Strengthening


2. Periodically prepare a written summary on DOL’s evaluation activities and report on
   whether DOL is in compliance with NARA regulations and DOL records
   management requirements.

3. Require Agency Heads to implement NARA and Departmental guidance by creating
   program specific recordkeeping procedures that instructs all employees on the
   maintenance and disposition of transitory records and documents that have no legal
   retention requirements under the Federal Records Act.

4. Before implementing the new retention policy, ensure that the Department’s
   evaluation of DOL’s Records Management program demonstrates compliance with
   NARA regulations and DOL records management requirements.

We did not recommend corrective action on employee training because it was
previously contained in a September 2007 Management Letter to the Assistant
Secretary for Administration and Management. The Assistant Secretary for
Administration and Management agreed to conduct annual training for all DOL
employees. The training was implemented in the third quarter of FY 2008.

Agency Response

The Deputy Assistant Secretary for Operations responded that the Department will
standardize as a regular part of its Records Management program the periodic
evaluations cited in NARA regulations 36 CFR part 1220.42. The framework for the
periodic evaluations will be derived from NARA’s self-evaluation guide for Federal
agencies. The periodic evaluations will be scheduled so that all DOL agencies will be
covered during a 5-year cycle on an ongoing basis, beginning in the first quarter of FY
2009. The Department will prepare a written summary as each evaluation is completed.
By the first quarter of FY2009, DOL will amend DLMS 1, Chapter 400, Records
Management Program, to reflect this expanded aspect of its Records Management
program.

On August 18, 2008, the Assistant Secretary for Administration and Management
issued a memorandum to Agency Heads, to create program-specific record keeping
procedures that instruct all employees on the maintenance and disposition of transitory
records and documents. Conformity with this guidance will be evaluated during the
Department’s periodic evaluations.

Concerning the recommendation to ensure that DOL can demonstrate compliance with
NARA regulations and DOL records management requirements before implementing
the new retention policy, the Deputy Assistant Secretary for Operations responded that
there is now a demonstrated assurance that the Department’s Records Management
program is in compliance with the NARA and DOL requirements. This can be based in
the substantial efforts the Department has undertaken since 2004 to improve its records
management program, the absence of any NARA –identified instances of non-
compliance in DOL’s Records Management program, the retirement of more than


14                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 03-08-001-07-001
                          The DOL Records Management Program Controls Need Strengthening


140,000 cubic feet of Federal records (both paper and electronic media) to NARA’s
Federal Records Centers, adopting OIG recommendations 1 through 3, and providing
annual mandatory records management training to all DOL employees. Additionally,
the retention policy will be guided by recent opinion from the Solicitor of Labor. The
retention policy will be re-issued before the end of FY 2008.

OIG Conclusion

Recommendations 1, 2, and 4 are resolved and recommendation 3 is closed. The
Deputy Assistant Secretary for Operations’ response to recommendation 4 provides an
alternative corrective action. We agree with the Deputy Assistant Secretary’s proposed
corrective action. However, the recommendation will not be closed until
recommendations 1 and 2 are implemented.

Objective 2 – Does DOL have sufficient controls to preserve e-mail and electronic
documents, as a result of legal hold orders, litigation discovery, and requests?

Results and Findings – DOL Did Not have an Effective Recordkeeping and
Document Management System to Manage its E-mail and Electronic Files In
Response to Requests.

DOL may be at risk of not being able to address in a timely and complete manner e-mail
and electronic file needs required as a result of legal hold orders and litigation
discovery. DOL depends on the collaboration of its SOL lawyers and Department
program officials to preserve Federal records and “non-record” materials in the form of
e-mail and electronic documents, as a result of legal hold orders, litigation discovery,
and requests. However, the DOL did not have effective controls over the recordkeeping
and maintenance of e-mails and electronic documents in order to efficiently access
them when needed. Specifically, DOL could not demonstrate an efficient and effective
organization and management of electronic data capable to produce it in a timely and
complete manner, when needed, from legal hold orders, litigation discovery proceedings
and requests. As a result, in FYs 2007 and 2008, DOL had to spend significant time
and funds to search and retrieve relevant documents in order to respond to major
Congressional requests. We were told the DOL OASAM initiated the development of an
electronic recordkeeping and document management system to address the need for
an effective and efficient management tool but due to budgetary considerations
suspended the project.

Title 36 CFR Part 1234.24(b), amended February 21, 2006, provides the standards for
managing electronic mail records. The agency recordkeeping system should: (1)
provide for the grouping of related records into classifications according to the nature of
the business purposes the records serve; (2) permit easy and timely retrieval of both
individual records and files or other groupings of related records; (3) retain the records
in a usable format for their required retention period as specified by a NARA-approved
records schedule; (4) be accessible by individuals who have a business need for
information in the system; (5) preserve the transmission and receipt data specified in

U.S. Department of Labor—Office of Inspector General                                     15
Report Number: 03-08-001-07-001
The DOL Records Management Program Controls Need Strengthening


agency instructions; and (6) permit transfer of permanent records to the National
Archives and Records Administration.

Part 1234.24(d) provides that agencies that maintain paper files as their recordkeeping
systems shall print their electronic mail records and the related transmission and receipt
data specified by the agency. It is DOL’s policy to print and save the e-mail message
and corresponding attachment(s) into a manual filing system or click and save the
e-mail message and corresponding attachment(s) into the agency's electronic
recordkeeping system.

DOL may be at risk of not being able to address in a timely and complete manner e-mail
and electronic file needs required as a result of legal hold orders and litigation
discovery.

DOL's litigation process is comprised of SOL counsel and program officials. Although
the SOL has a management information system to track and account for legal activity
within the Department, it relies on the collaborative effort between its lawyers and
program officials to protect and preserve records and non-record materials when legal
holds or discoveries occur.

Recent court rulings, amendments to the Federal Rules of Civil Procedure (FRCP) in
2006, and Federal records regulations have increased awareness of why effective e-
mail and electronic files management is important. The 2006 amendments to the FRCP
require that organizations manage their electronic data so they can produce it in a
timely and complete manner, when needed, during legal discovery proceedings.
Specifically, the FRCP Rule 37(f) provides for limited protection from some spoliation
(deletion of e-mail and electronic files) sanctions based on the presence of “routine,
good faith” operations of information systems. A good faith and reasonable effort to
implement a legal hold must be made once a preservation obligation is triggered.
Courts have imposed sanctions where e-mail was destroyed or lost at a time when a
preservation obligation was in effect. The sanctions against the spoliating party can
range from adverse inferences, adverse evidentiary rulings, or monetary sanctions.

These changes reflect the reality that discovery of e-mail and electronic files is now a
routine, yet critical, aspect of every litigated case. E-mail and electronic file
management should address preservation needs required as a result of legal holds
related to current or anticipated litigation, litigation discovery, FOIA and Congressional
requests, audits, investigations, and Federal records requirements.

As a result of the 2006 amendments to the FRCP, the SOL took several steps to
prepare agencies on the requirements to preserve electronically stored information.
The SOL:

     •   created a committee in April 2006 that discussed the changes to the FRCP
         regarding electronically stored information and ensured that SOL attorneys were
         aware of, and had a basic understanding of, the new rules;


16                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-08-001-07-001
                           The DOL Records Management Program Controls Need Strengthening




   •   issued a memorandum in November 2006 to DOL Regional Directors, Regional
       Administrators, and MSHA District Managers, which explained the importance of
       preserving electronically stored information and provided the procedures to be
       followed when the need occurs; and

   •   provided training in October 2007 to staff in both the National and Regional
       Solicitors’ Offices.

The DOL SOL actions in response to the FRCP amendment are merited. However,
DOL needs to further minimize the cost to the DOL in meeting future needs to retrieve
electronically stored information and the litigation risks against the liabilities associated
with document disposal of electronic data subject to legal hold orders and litigation. To
accomplish this DOL must demonstrate that it has an effective Records Management
program for the preservation, retrieval and routine disposal of records.

DOL did not have sufficient controls over the organization and management of e-mails
and electronic documents when accessing electronic data in response to requests.

DOL's e-mail system is managed by nine agencies. DOL agencies back up e-mail and
electronic files primarily for disaster recovery and contingency planning. The use of
back-up media to comply with litigation discoveries, holds, and requests did not
demonstrate effective e-mail management practices because they did not provide
advanced search and retrieval functions to track down e-mail in a timely and
cost-effective manner. For example, DOL’s response to Congressional requests in
2006 and 2007 showed how searching backup media for relevant e-mails and electronic
files is costly—both in terms of time and money. Three examples highlight these costs.

       On February 22, 2006, the Secretary of Labor received a request from the U.S.
       House of Representatives, Committee on the Judiciary for e-mail
       correspondence sent and received by four individuals between January 1, 2002,
       and February 22, 2006. DOL contracted with National Data Conversion Institute
       (NDCI) for tape restoration, extraction, and message filtering. Invoices showed
       that NDCI processed more than 6,600 tapes at a cost of approximately
       $2.2 million.

       On April 26, 2007, the Secretary of Labor received an e-mail record search
       request from the House of Representatives, Committee on Oversight and
       Government Reform related to political briefings given by White House officials to
       Federal agency officials. In response, on May 18, 2007, DOL proposed a plan
       that included an estimated cost for vendor services to facilitate the proposed e-
       mail search. The response stated that the search would take approximately 90
       days and cost about $1.2 million. After further meetings and discussions, the
       Committee officials agreed to reduce the e-mail search parameter. DOL
       provided a proposal that revised the time to 2-3 weeks and the cost to $148,500.



U.S. Department of Labor—Office of Inspector General                                        17
Report Number: 03-08-001-07-001
The DOL Records Management Program Controls Need Strengthening


      As of July 2008, the Committee had not yet directed the Department to proceed
      with an e-mail search.

      On September 24, 2007, DOL received a subpoena for a document and e-mail
      search from the House of Representatives, Committee on Education and Labor
      concerning the Crandall Canyon Mine. The request required DOL to search two
      e-mail systems: (1) OASAM’s Employee Computer Network (ECN), which
      supports the Departmental Management Agencies, and DOL agency executives,
      including the Offices of the Secretary and Deputy Secretary; and (2) MSHA’s
      system, which is used by its employees and the Office of the Assistant Secretary
      for Mine Safety and Health. DOL estimated it would cost $3.5 million and take 20
      weeks to complete. As of July 2008, MSHA was still in the process of providing
      the documents to the Committee, and was tracking its actual cost.

DOL Initiated the Development of an Electronic Recordkeeping and Document
Management System but Suspended the Project Due to Budgetary Considerations

In September 2006, DOL proposed that OASAM establish an electronic recordkeeping
and document management system. The proposed system was called the electronic
Document Management/Records Management (DM/RM) system. OASAM proposed
the DM/RM to be a Department-wide electronic record keeping system to manage
documents or e-mails. According to OASAM, the DM/RM initiative will address the
needless retention and under retention of both records and electronic information in
general and will enable the Department to centrally, efficiently and effectively manage
and access mission-critical information. According to Exhibit 300: Capital Asset Plan
and Business Case, the justification stated:

      DOL is currently experiencing needless retention and under
      retention of both records and electronic information in general.
      DOL is retaining information that has no legal retention obligation or
      ongoing business value while information that may have a legal
      retention obligation due to the Federal Records Act and
      E-Discovery runs the risk of being destroyed prematurely.

As of October 2007, DOL completed the Conceptual Planning and Requirements
Definition phase for DM/RM. However, DOL officials told us the implementation of the
DM/RM was suspended after re-prioritizing planned capital asset acquisitions for
budgetary reasons. We believe this system, or a similar system, would provide effective
records management controls over the maintenance and use of records in order to
efficiently access them when needed.




18                                     U.S. Department of Labor—Office of Inspector General
                                                           Report Number: 03-08-001-07-001
                          The DOL Records Management Program Controls Need Strengthening




Recommendation

We recommend that the Assistant Secretary for Administration and Management:

5. Conduct a cost-benefit analysis on establishing an electronic recordkeeping and
   document management system, or a similar system which provides the capabilities
   to centrally, efficiently and effectively manage and access e-mails that are Federal
   records and addresses the unnecessary retention of e-mails that are transitory
   records or non-records.

Agency Response

The Deputy Assistant Secretary for Operations responded that DOL is aware of the
potential benefits of electronic recordkeeping and document management systems.
The Office of the Chief Information Officer will update its cost-benefit analysis of
electronic recordkeeping and document management systems by the second quarter of
FY 2009. The cost-benefit analysis will assess the technical maturity of electronic
recordkeeping and document management systems, as well as evaluate the best
architecture of such a system for DOL.

OIG Conclusion

The recommendation is resolved and will be closed when the Office of the Chief
Information Officer updates the cost-benefits analysis of the proposed electronic
recordkeeping and document management system.




Elliot P. Lewis




U.S. Department of Labor—Office of Inspector General                                  19
Report Number: 03-08-001-07-001
The DOL Records Management Program Controls Need Strengthening




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




20                                    U.S. Department of Labor—Office of Inspector General
                                                          Report Number: 03-08-001-07-001
                          The DOL Records Management Program Controls Need Strengthening




Exhibit




U.S. Department of Labor—Office of Inspector General                                 21
Report Number: 03-08-001-07-001
The DOL Records Management Program Controls Need Strengthening




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




22                                    U.S. Department of Labor—Office of Inspector General
                                                          Report Number: 03-08-001-07-001
                          The DOL Records Management Program Controls Need Strengthening


                                                                                EXHIBIT A
                                                                               Page 1 of 3
                                         Glossary

Document Management/Records Management (DM/RM) System Initiative – DOL
proposed Department–wide Document Management/Records Management system to
reduce costs, increase efficiencies and advance the goals of the eGov initiative, E-
Records Management.

Evaluation – The selective or comprehensive inspection, audit, or review of one or
more Federal agency records management programs for effectiveness and for
compliance with applicable laws and regulations.

Freedom of Information Act (FOIA) – Provides for any person with the statutory right,
enforcement in court, to obtain access to Government information in executive branch
agency records.

General Records Schedule (GRS) – Provides disposition authorities for Records
common to most or all Federal agencies.

Litigation Hold – When a party is under a duty to preserve information because of
pending or reasonably anticipated litigation.

Metadata – Metadata is information about a particular data set which may describe, for
example, how, when, and by whom it was received, created, accessed, and/or modified
and how it is formatted. Some metadata, such as file dates and sizes, can easily be
seen by users; other metadata can be hidden or embedded and unavailable to
computer users who are not technically adept. Metadata is generally not reproduced in
full form when a document is printed.

Non Records – Federally-owned informational materials that do not meet the statutory
definition of records (44 United States Code 3301) or that have been excluded from
coverage by the definition. Excluded materials are extra copies of documents kept only
for reference.

Permanent Record – Any Federal record that has been determined by NARA to have
sufficient value to warrant its preservation in the National Archives of the United States.




U.S. Department of Labor—Office of Inspector General                                     23
Report Number: 03-08-001-07-001
The DOL Records Management Program Controls Need Strengthening


                                                                                 EXHIBIT A
                                                                                Page 2 of 3

Records - All books, paper, maps, photographs, machine-readable materials, or other
documentary materials, regardless of physical form or characteristics, made or received
by an agency of the United States Government under Federal law or in connection with
the transaction of public business and preserved or appropriate for preservation by that
agency or its legitimate successor as evidence of the organization, functions, policies,
decisions, procedures, operations or other activities of the Government or because of
the informational value of the data in them.

Recordkeeping System - A manual or automated system in which records are
collected, organized, and categorized to facilitate their preservation, retrieval, use and
disposition.

Records Management - The planning, controlling, directing, organizing, training,
promoting, and other managerial activities involved with respect to records creation,
records maintenance and use, and records disposition in order to achieve adequate and
proper documentation of the policies and transactions of the Federal Government and
effective and economical management of agency operations.

Records Schedule - Includes (a) an SF 115, Request for Records Disposition
Authority, that has been approved by NARA to authorize the disposition of Federal
records; (b) a General Records Schedule (GRS) issued by NARA; or (c) a printed
agency manual or directive containing the records descriptions and disposition
instructions approved by NARA on one or more SF 115s or issued by NARA in the
GRS.

Standard Form (SF) 115 Request for Records Disposition - Records schedule that is
specific to an individual agency and has been approved by NARA to authorize the
disposition of Federal records.

Temporary records - Any records which have been determined by the Archivist of the
United States to have insufficient value (on the basis of current standards) to warrant its
preservation by the National Archives and Records Administration. This determination
may take the form of: (a) a series of records designated as disposable within a specific
time frame in an agency records disposition schedule approved by NARA (Standard
Form 115, Request for Records Disposition Authority); or (b) a series of records
designated as disposable within a specific time frame in a General Records Schedule.

Transitory Records – NARA approved agency records of short-term (180 days or less)
interest, including in electronic form, which have minimal or no documentary or
evidential value. Examples of transitory e-mail and other records include: routine
request for information, originating office copies of letters or transmittals that do not add
any information contained in the transmitted material, quasi-official notices that do not
serve as the basis for official actions.

24                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-08-001-07-001
                          The DOL Records Management Program Controls Need Strengthening




                                                                             EXHIBIT A
                                                                            Page 3 of 3

Unscheduled records - Records for which NARA has not approved the final
disposition. Unscheduled records are those that have not been included on a Standard
Form 115, Request for Records Disposition Authority, or approved by NARA.
Unscheduled records cannot be disposed of until NARA approval of disposition
authority.




U.S. Department of Labor—Office of Inspector General                                 25
Report Number: 03-08-001-07-001
The DOL Records Management Program Controls Need Strengthening




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




26                                    U.S. Department of Labor—Office of Inspector General
                                                          Report Number: 03-08-001-07-001
                          The DOL Records Management Program Controls Need Strengthening




Appendices




U.S. Department of Labor—Office of Inspector General                                 27
Report Number: 03-08-001-07-001
The DOL Records Management Program Controls Need Strengthening




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




28                                    U.S. Department of Labor—Office of Inspector General
                                                          Report Number: 03-08-001-07-001
                          The DOL Records Management Program Controls Need Strengthening


                                                                            APPENDIX A
BACKGROUND

The Federal Records Act of 1950 requires that the head of each Federal agency
establish and maintain an active records management program. NARA has oversight
responsibilities of Federal records management programs. NARA assists Federal
agencies in the creation, preservation, and disposition of records containing
documentation of the organization, function, policies, and essential transactions of the
agency. In DOL, the Assistant Secretary for Administration and Management is
responsible for managing the Department’s records and providing overall policy
direction for the Department’s Records Management program. The Office of the
Assistant Secretary for Administration and Management’s (OASAM’s) Business
Operations Center is responsible for carrying out this policy.

Records management includes a three-phase life cycle for managing records from
creation, maintenance and use, and through final disposition. The management life
cycle includes determining what records employees should create and maintain
(recordkeeping requirements), what information the records should contain
(documentation standards), what records an agency has in its control (records
inventories), and where they are located (file plans), and when an agency should
dispose of records or transfer those of historical value to the National Archives
(disposition schedules).

The DOL Records Management program consists of managerial activities involved in
records creation, maintenance and use, and disposition to achieve adequate and proper
documentation of the policies and transactions of the Department. The objectives of the
Department's Records Management program were to:

1. Provide effective control, appropriate security, and management over the creation,
   maintenance and use, and disposition of all records, regardless of recording media.
2. Manage DOL records from initial creation to final disposition.
3. Ensure that the records accurately reflect the business practices, policies, and
   transactions of DOL.
4. Foster effective and economical Departmental recordkeeping.
5. Coordinate records management activities with other information management and
   DOL activities, as needed.
6. Ensure careful preservation and disposition of DOL records.
7. Prevent unauthorized access, removal and loss of records.

Federal records include all books, papers, maps, photographs, machine-readable
materials, or other documentary materials, regardless of physical form or
characteristics, made or received by a Federal agency under law or in connection with
the transaction of public business. Electronic Federal records are original records
generated by a word processor, personal computer, electronic mail system or
automated processing system and made or received by a Federal agency.


U.S. Department of Labor—Office of Inspector General                                       29
Report Number: 03-08-001-07-001
The DOL Records Management Program Controls Need Strengthening


Federal agencies manage the creation, maintenance, and use of records in accordance
with the agency’s approved SF-115, Records Disposition Authority, and the GRS. A
records schedule governs specified series of records common to several or all agencies
or administrative units of a corporate body. The GRS provides disposition authority for
temporary administrative records common to several or all agencies of the Federal
Government. Agencies need to schedule their program records by completing a
SF-115, Request for Records Disposition Authority. The SF-115 is used for records that
are not common throughout Government and are not part of the GRS. Records
scheduled on the SF-115 are typically unique to the agency’s program. The process for
completing the SF-115 involves inventorying and evaluating agency records, and
reviewing the agency functions, recordkeeping requirements, and practices.

The Department Records Officer, assigned in OASAM’s Business Operations Center, is
responsible for managing the day-to-day administration and management of all matters
related to DOL’s Records Management program. Other key responsibilities include:

     •   Serving as the Department’s liaison with NARA in applying standards,
         procedures, and techniques designed to improve the management of records,
         promote the maintenance and security of records deemed appropriate for
         preservation, and facilitate the segregation and disposal of records of temporary
         value.

     •   Advising and assisting DOL agencies in administering their agency’s records
         management program.

     •   Reviewing the SF-115 “Request for Records Disposition Authority,” before
         forwarding the record’s schedule to NARA.

     •   Keeping abreast of new information technologies and activities as well as
         changes in legislation or guidelines that may affect the management of the
         Department’s records.

     •   Making recommendations to improve the Department’s Records Management
         program and Department-wide recordkeeping systems.

     •   Performing periodic reviews for the effectiveness and efficiency of the
         Department’s Records Management program.

DOL Agency Heads are responsible for developing and implementing an effective
Records Management program within their respective organizations that is consistent
with the DLMS. They are responsible for assigning an Agency Records Officer for the
management and execution of the Agency’s Records Management program. Agency
Heads have to ensure that the appropriate Agency staff receives adequate records
management training and participates in Departmental as well as Agency training and
awareness activities. At a minimum, all staff responsible for the execution of the records
management program within the Agency must complete the NARA training on Basic

30                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-08-001-07-001
                          The DOL Records Management Program Controls Need Strengthening


Records Management, Electronic Records Management and Scheduling and
Disposition of Federal Records.

Agency Program Managers are responsible for overseeing the proper maintenance and
management of records and providing accurate documentation of information necessary
for the development of the SF-115 and the disposition of records outlined in the SF-115.
They are also responsible for ensuring that adequate training is provided to personnel
on policies, procedures, responsibilities and techniques for adequate recordkeeping
procedures and practices. The Agency Records Officer is responsible for maintaining
liaison with the Departmental Records Officer on records management activities and
scheduling the disposition of the Agency’s records. Additionally, the Agency Records
Officer is responsible for implementing, maintaining, and managing the Agency’s
records management program, including the periodic review of the Agency’s existing
SF-115s. These reviews should be done once a year or at a minimum a complete
review, which includes conducting an inventory of records in all media, should be done
once every five years.

All DOL Employees (including agency heads and managers) are responsible for
identifying their program functions and activities and determining what records are
needed to document those activities and functions. They also are responsible for
creating sufficient records to document those activities and functions and maintaining
those records in a way that allows all persons who need access to find and retrieve
what they need. Employees are responsible for ensuring they do not retain records
authorized for destruction, keep official records separate from non-record materials, and
protect records that contain sensitive but unclassified information such as Privacy Act
information and confidential business information, or other types of sensitive information
with appropriate safeguards.




U.S. Department of Labor—Office of Inspector General                                    31
Report Number: 03-08-001-07-001
The DOL Records Management Program Controls Need Strengthening




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




32                                    U.S. Department of Labor—Office of Inspector General
                                                          Report Number: 03-08-001-07-001
                          The DOL Records Management Program Controls Need Strengthening


                                                                            APPENDIX B
OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA
Objectives
Our audit objectives were to answer the following questions.

   1. Does DOL have sufficient controls to ensure that Federal records are preserved
      in accordance with Federal regulations?

   2. Does DOL have sufficient controls to preserve e-mail and electronic documents,
      as a result of legal hold orders, litigation discovery, and requests?

Scope
We conducted our audit in accordance with Generally Accepted Government Auditing
Standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. An audit made in accordance with these standards does not
guarantee the discovery of illegal acts, abuse, or all internal control weaknesses. We
believe our audit provides a reasonable basis for our assessment and conclusions.

The conclusions in this report are the result of our audit in FY 2007, unless otherwise
noted. Changes in management of the program, including changes in controls, laws,
regulations, and other compliance requirements, could result in performance that would
be different from the performance during that period.

A performance audit includes an understanding of internal controls considered
significant to the audit objectives and testing compliance with significant laws,
regulations, and other requirements. Our work on internal controls included obtaining
and reviewing policies and procedures, and interviewing key personnel. We gained an
understanding of the data flow in each audit area and documented a description of the
controls. Our testing of internal controls focused only on the controls related to our
objectives of assessing compliance with significant laws, regulations, and policies and
procedures. We did not intend to form an opinion on the adequacy of internal controls
overall, and we do not render such an opinion. Weaknesses noted in our testing are
discussed in the Results and Findings section of this report.




U.S. Department of Labor—Office of Inspector General                                    33
Report Number: 03-08-001-07-001
The DOL Records Management Program Controls Need Strengthening


We conducted fieldwork from August 7, 2007, through January 24, 2008, at the DOL
National Office located in Washington, DC, and the following field offices:

 Agency                                   Field Offices
 ESA       Wage and Hour District Office in Philadelphia, Pennsylvania
 OSHA      Area Office in Philadelphia, Pennsylvania
 MSHA      Metal and Nonmetal Northeast District Office in Warrendale, Pennsylvania
 BLS       Regional Office in Philadelphia, Pennsylvania

Methodology

To determine if DOL’s policies, procedures, and practices complied with NARA
regulations, we reviewed DOL’s Department-wide Records Management program
policies and procedures and compared them to NARA regulations. We interviewed the
DOL Records Officers and the Director of the OASAM's Business Operations Center to
gain an understanding of DOL’s Records Management program.

To gain an understanding of records management practices, we judgmentally selected
five DOL agencies and interviewed their agency Records Officers. We based our
selection on the size of the agency (e.g., number of employees) and nature of the
agency’s work (e.g., potential records produced and the sensitivity of information). We
used the President’s FY 2007 Budget for DOL to identify the number of employees for
each agency. Data from the budget documents is computer generated and used in
DOL's Consolidated Financial Statements, which OIG and KPMG LLP audits found
fairly reported the DOL's financial position. However, we did not assess the reliability of
the budget documents for the purpose of this audit because we believe the budget
documents are widely used by the Legislative and Executive branches, are supported
by other evidence gathered, and are sufficiently reliable to meet the audit objectives and
support our recommendations. We selected the following DOL agencies:

                                  Agency     Employees
                                   ESA           3,755
                                  OSHA           2,173
                                  MSHA           2,136
                                   BLS           2,453
                                   ETA           1,232
                                   Total        11,749

At the five agencies, we interviewed the Records Officer to gain an understanding of the
agency’s record management practices. We also judgmentally selected a program
using the SF-115 records schedule as the basis for our selection. The purpose was to
obtain a variety of recordkeeping systems as described in the approved SF-115. We
selected the SF-115 from a master list manually created by the DOL Records Officer.
We did not perform tests to determine the accuracy of the master list. For each
program, we interviewed the Program Manager, Records Liaison, and a judgmental
sample of 12 employees and locations to identify and understand the program’s records


34                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 03-08-001-07-001
                          The DOL Records Management Program Controls Need Strengthening


management practices. We based our judgmental selection of the employees on their
position, job description, and availability at the time of our visit to their office.

We selected the following programs:

                       Agency                 Program
                       ESA        Wage and Hour
                       OSHA       Safety and Health Inspection
                       MSHA       Metal and Nonmetal Inspection
                       BLS        Quarterly Employment Statistics
                       ETA        Trade Adjustment Assistance

To determine if the agency documented program activities, we reviewed a non-
representative random sample of 32 case files to see if they contained the minimal
documentation requirements.

To determine if DOL’s Federal records and non-record materials in the form of e-mail
and electronic documents were protected as a result of legal hold orders, litigation
discovery, and requests, we reviewed documentation and interviewed:

   •   SOL head officials from the Division of Management and Administrative Legal
       Services;
   •   SOL officials from the Divisions of Employment and Training Legal Services, Fair
       Labor Standards, Mine Safety and Health, and Occupational Safety and Health.
       (These divisions provide full legal services within designated legislative and
       program areas for the agencies we selected for audit.); and
   •   The heads of the SOL E-Discovery Committee. (SOL established the committee
       in the spring of 2006, to address the changes to the Federal Rules of Civil
       Procedure about electronically stored information.)

To obtain an understanding of procedures and practice for responding to Congressional
requests, we interviewed the Assistant Secretary for the Office of Congressional and
Intergovernmental Affairs and the Deputy Chief Information Officer. We also reviewed
documents related to major Congressional requests in 2006 and 2007 to determine how
much time and funds DOL spent in responding to them.

Data Reliability

To accomplish our audit objectives, we relied on the minimal use of computer generated
data. To select a random non-statistical sample of case files for the agencies audited,
we used a computer generated list from the agency records officer or program
manager. We considered the audit risk for the completeness of the lists to be low and
therefore, we did not find it necessary to perform such tests.




U.S. Department of Labor—Office of Inspector General                                   35
Report Number: 03-08-001-07-001
The DOL Records Management Program Controls Need Strengthening


Criteria

We used the following criteria to perform our audit:

      The Federal Records Act of 1950, as amended and codified in Title 44 of the
      United States Code

      Title 36 CFR, Chapter XII, dated June 28, 1985, unless otherwise noted

      NARA Records Handbook, 2000 Website Edition

      NARA Records Management Self-Evaluation Guide, 2001 Website Edition

      OMB Circular A-123, dated December 21, 2004

      DLMS-1, Chapter 400, dated January 7, 2005

      DOL Records Management Handbook, May 2007

      Secretary's Order 2-2004, dated August 5, 2004

      Freedom of Information Act / Electronic Freedom of Information Act
      Amendments, as amended 2002

      December 2006 Amendments to the Federal Rules of Civil Procedure




36                                      U.S. Department of Labor—Office of Inspector General
                                                            Report Number: 03-08-001-07-001
                          The DOL Records Management Program Controls Need Strengthening


                                                                            APPENDIX C
ACRONYMS AND ABBREVIATIONS

          BLS            Bureau of Labor Statistics

          CFR            Code of Federal Regulations

          DOL            U.S. Department of Labor

          DLMS           Department of Labor Manual Series

          DM/RM          Document Management/Records Management

          ECN            Employee Computer Network

          ESA            Employment Standards Administration

          ETA            Employment and Training Administration

          FOIA           Freedom of Information Act

          FRCP           Federal Rules of Civil Procedure

          GRS            General Records Schedule

          MSHA           Mine Safety and Health Administration

          NARA           National Archives and Records Administration

          NDCI           National Data Conversion Institute

          OASAM          Office of the Assistant Secretary for Administration and
                         Management

          OIG            Office of Inspector General

          OMB            Office of Management and Budget

          OSHA           Occupational Safety and Health Administration

          SOL            Solicitor of Labor




U.S. Department of Labor—Office of Inspector General                                 37
Report Number: 03-08-001-07-001
The DOL Records Management Program Controls Need Strengthening




                 PAGE HAS BEEN INTENTIONALLY LEFT BLANK




38                                    U.S. Department of Labor—Office of Inspector General
                                                          Report Number: 03-08-001-07-001
                          The DOL Records Management Program Controls Need Strengthening


                                                                          APPENDIX D
AGENCY RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                                 39
Report Number: 03-06-004-01-370
The DOL Records Management Program Controls Need Strengthening




40                                    U.S. Department of Labor—Office of Inspector General
                                                          Report Number: 03-08-001-07-001
                          The DOL Records Management Program Controls Need Strengthening




U.S. Department of Labor—Office of Inspector General                                 41
Report Number: 03-08-001-07-001
The DOL Records Management Program Controls Need Strengthening




42                                    U.S. Department of Labor—Office of Inspector General
                                                          Report Number: 03-08-001-07-001
                          The DOL Records Management Program Controls Need Strengthening




U.S. Department of Labor—Office of Inspector General                                 43
Report Number: 03-08-001-07-001
The DOL Records Management Program Controls Need Strengthening




44                                    U.S. Department of Labor—Office of Inspector General
                                                          Report Number: 03-08-001-07-001
                          The DOL Records Management Program Controls Need Strengthening




U.S. Department of Labor—Office of Inspector General                                 45
Report Number: 03-08-001-07-001
The DOL Records Management Program Controls Need Strengthening




46                                    U.S. Department of Labor—Office of Inspector General
                                                          Report Number: 03-08-001-07-001
                          The DOL Records Management Program Controls Need Strengthening




U.S. Department of Labor—Office of Inspector General                                 47
Report Number: 03-08-001-07-001
The DOL Records Management Program Controls Need Strengthening




48                                    U.S. Department of Labor—Office of Inspector General
                                                          Report Number: 03-08-001-07-001
                          The DOL Records Management Program Controls Need Strengthening




U.S. Department of Labor—Office of Inspector General                                 49
Report Number: 03-08-001-07-001
The DOL Records Management Program Controls Need Strengthening




50                                    U.S. Department of Labor—Office of Inspector General
                                                          Report Number: 03-08-001-07-001
                          The DOL Records Management Program Controls Need Strengthening




U.S. Department of Labor—Office of Inspector General                                 51
Report Number: 03-08-001-07-001
The DOL Records Management Program Controls Need Strengthening




52                                    U.S. Department of Labor—Office of Inspector General
                                                          Report Number: 03-08-001-07-001
                          The DOL Records Management Program Controls Need Strengthening




U.S. Department of Labor—Office of Inspector General                                 53
Report Number: 03-08-001-07-001
The DOL Records Management Program Controls Need Strengthening




54                                    U.S. Department of Labor—Office of Inspector General
                                                          Report Number: 03-08-001-07-001
                          The DOL Records Management Program Controls Need Strengthening




U.S. Department of Labor—Office of Inspector General                                 55
Report Number: 03-08-001-07-001
The DOL Records Management Program Controls Need Strengthening




56                                    U.S. Department of Labor—Office of Inspector General
                                                          Report Number: 03-08-001-07-001
